*:*-)
»

No.
(Ref. Case No. 20-1705)
In the

SOPREME COORT OF THE OMTED STATES
Crystal VL Rivers,
Petitioner
v.

FILED
JUL 2 9 2021

United States of America,
Respondent

SUPREEMEFCTQURTLURSK

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
PETITION FOR A WRIT OF CERTIORARI

X

l
Crystal VL s&ygis, Petitioner, Pra Se
3831 Old Forest Rd, Suite 6
^
Lynchburg VA 24501
riversparalegalservices@gmail.com
434-818-2921
Date: July 27, 2021

~HbCEIVEb "
AUG > 2 2021

m

f
QUESTIONS PRESENTED

The Petitioner/Victim, Crystal VL Rivers, filed her Crime Victim Rights Act
Petition to aid in the enforcement of the CVRA rights currently in place and
afforded to her, in the district court after learning, for the first time, in 2019 after
viewing a CNN News story relating to Jeffrey Eppstein and the high profile Crime
Victims’ Rights Act case (in re Does v USA, filed in the United States District
Court for the Southern District of Florida and currently pending in the Eleventh
Circuit Court of Appeals, Record No 19-13843). Victim-Petitioner had never been
informed by the Government or their employees at any time since she reporting
crimes committed against her, that she had any such rights. Additionally, Petitioner
has never received a victim notification under the,CVRA and the Government
attorneys have not conferred with her about the status of the investigation, any
court proceedings related to the matter or agreements with subject John Wynne and
other non-indicted co-conspirators. Petitioner filed her Petition for Enforcement
under the CVRA in her Civil RJCO matter, Crystal Rivers v USA 6:18-cv-00061,
filed with the Western District of Virginia soon after learning that she had rights
under the CVRA and believed she still had rights under the CVRA because there
had been no known indictment and the crimes were ongoing continuing to be
committed against her and learned of as “newly discovered” in Circuit Court
litigation upon discovery. Because the Government had not divulged the status of

their investigation including any identifying case numbers, Petitioner filed her
underlying CVRA Petition in the District Court raising many issues in several
years of on-going suffering and reporting state and federal crimes committed
against her and other victims by Wynne (who operated an illegal banking
enterprise ((Rivermont Banking Company Inc. between 2006 and 2014)). Wynne
who was sued under RICO in the Western District Court of Virginia in 2012 ((in
re: CVLR Performance Horses Inc v Wynne 6:1 l-cv-00035)) and the subject of
grand jury investigation, prosecuted by the “Government”, before, during, and
after the Fourth Circuit’s ruling in Record No. 12-1591.
In the Fourth Circuit’s Opinion in CVLR, the Appeal’s Court reversed the
district court’s dismissal of CVLR’s complaint, finding that, “[t]he RICO conduct
‘projected into the future with a threat of repetition, citing JJ Inc 492 US at 241,
and there was no other indication that Wynne’s conduct was to be limited to only
the identified victims. Thus, the victim’s discovery of the Appellees misconduct
does not prevent CVLR from establishing open-ended continuity.” VictimPetitioner was not named as a defendant in CVLR but rather alluded to in the
complaint with two other victims named. In sum, the Government’s ongoing
investigation has not yielded indictment to the best of Victim-Petitioner’s
knowledge, the criminal investigation is on-going, requests for status and case
numbers have been refused, and no victim notices provided. The Government
ii

;!

continues to obtain additional facts relevant to criminal activity committed against
the Victim-Petitioner filed in her pleadings in the District Court case in re: Crystal
VL Rivers v United States, et al 6:18-cv-00061 and in correspondence sent to the
“Government’s” counsel. The Government continues to bolster their “newly
discovered” ongoing investigation case for the IRS, with the assistance of the
Virginia State Police and other investigative agencies assigned to the federal and
grand jury investigations as “government” employees under Rule 6(e). Reports
were made, investigations ensued, and evidence was gathered from the Petitioner
which led to both the previous and the ongoing investigations, worked and
prosecuted by federal and government employees and several attorneys employed
by the “Government” and ultimately the Department of Justice. One such US
Attorney, Thomas Cullen, is a party of interest and appointed Federal Judgeship
for the Western District of Virginia after the filing of this matter.
The facts are undisputed that during the criminal investigation of Wynne and
Rivermont, additional banks, bank insiders, attorneys, Real Estate and Settlement
agents, mortgage brokers, insurance companies,, financiers, builders, buyers and
sellers, and several other non-indicted co-conspirators, (now named as defendants
in the Victim-Petitioner’s District Court case) ongoing wrongdoing was reported to
and evidence obtained by the “Government” and their SAC and SAA employees
by the Victim-Petitioner. This fact alone is not considered “conferring” with the
iii

“Government” about the status of the investigation or their case related to or
relevant to the crimes committed against the Victim-Petition. The agents and
Assistant United States Attorneys merely, less thap a handful of times, purposely
only spoke with the Victim-Petitioner to obtain the evidence of the unlawful
conduct reported to them by her and, instead of notifying her of her rights under
the CVRA or the status of the investigation or divulging to her that the very special
agents and state agencies she reported additional state crimes to were in fact
assigned to their federal and grand jury investigations as “government” employees
under Rule 6(e). The Government has continued to fail to confer with the
Petitioner and has not presented indictment, information or complaint against
Wynne or the others in the Western or Eastern Dis trict Courts which charges could
have resulted in “full restitution as provided in lav/” and tabled automatic rights
under the CVRA to the Victim-Petitioner if a conviction would be obtained.
The Petitioner believes that the Government has re-victimized and prejudiced
her by getting what amounted to restitution only for the Government, in
furtherance of their enormous federal investigation of Wynne and the others, all in
violation of 18 U.S.C. 3664(i) “[a]ll other victim(s) receive full restitution before
the United States receives any restitution.”
In the annual reports to Congress on the CVRA from the Administrative
Office of US Courts, for fiscal years from 2014 to 2019, in the federal trial courts,
?v

*

;

L

i

none of the cases involved decisions within the Fourth Circuit involving disputes
over the CVRA’s pre-charging application.
The authority in this matter lies in Wild. The Eleventh Circuit reversed the
Fifth Circuit’s ruling in re: Wild 9:08-cv-80736-KAM deepening a circuit conflict
and endangering the livelihoods of the victims in this matter.
i

The questions presented are: .

i

1. Whether the CYRA extends any rights to Crime Victim’s named in the
matter, before federal charges are formally filed in the “detection,
investigation, or prosecution” of the crimes reported by the victim
2. Whether the CVRA extends any rights to Crime Victim’s named in the
matter, while prosecution and grand jury investigation of the crimes reported
by the victim are underway

!

r

i

\

i

>

v
i
i

PARTIES TO THE PROCEEDING
The Respondent is the United States, “Government”. The underlying “newly
discovered” facts have been validated as an ongoing criminal investigation,
relating to the “Government” employees and is believed to being used and
negotiated, by attorneys for the United States Attorney’s Office for the Western
District of Virginia. The Government has been represented by Sara Bugbee,
Assistant U.S. Attorney for the Western District of Virginia. Non-indicted co­
conspirators, parties named defendant” within the Petitioners complaint are also
part of the “newly discovered” ongoing investigation and are interested in this
case.
Because this Petition relates to the original Petition filed under the Crime
Victims’ Rights Act, the United States District Court for the Western District of
Virginia (Dillan, K) is technically a nominal respondent.1 No corporate entities are
party to the proceeding.

1 An underlying issue of jurisdiction remains in this matter. In Mandamus Petition for Recusal was filed against
Judge Dillan in the Fourth Circuit Record No. 21-1162,4th Cir. Dismissal judgment dated 5/17/21, pending Writ.
Remedy of Writ to this Court is due to be filed accordingly

vi

t

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

v

TABLE OF CONTENTS

,V11

INDEX OF APENDICES

ix

TABLE OF AUTHORITIES

ix

OPINIONS BELOW

1

JURISDICTION.

i

1

RELEVANT STATUTORY PROVISIONS

1

INTRODUCTION

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT
I.

14

The Fourth Circuit’s ruling is unpersuasive and did not address the

conflict of the Circuit’s and failed to wait to issue their opinion until after the
decision in Wild which will determine the issue of whether the formal filing
i

of federal charges by complaint, information or indictment is necessary
before federal crime victims CVRA rights apply

14

vii

t

II. The DOJ provides pre-charging notifications to crime victims but failed
to do so in this matter.

16

III. Material facts and legal matters were overlooked by the Fourth Circuit
relating to the “definition” of confer under t ie CVRA
CONCLUSION

17
18

!

CERTIFICATE OF COMPLIANCE

19

PROOF OF SERVICE

19

viii

INDEX OF APENDICES
Appendix A Decision of the Fourth Circuit Court of Appeals
Appendix B Decision of the Fourth Circuit Court of Appeals
TABLE OF AUTHORITIES

Cases
Courtney Wild v United States (11th Cir. 2014)

2,3,4, 6, 7, 8, 13, 14, 15

Doe(s) v United States, (S.D. Fla. 2011).........

...................... '..2,11,12

Kenna v US Dist. Courtfor CD of Cal.
435 F3d 1011, 1013 (9th Cir. 2006)............

15

Frank v United States, No 19-10151
789 Fed. App. (177 11th Cir. 2019).............

16

Statutes
18 USC Sect. 3771 (b)(2)(D)

1,5,7

28 U.S.C. § 1254(1).............

1

18 USC Sect. 3771 (d)(5)(c).

........... 1,5,7

18 USC Sect. 3771 (e).........

...........C5,7

18 USC Sect. 3771 (d)(3).....

1,5, 8, 12, 16

18 USC Sect. 3664 (i)...........

......... 1,5,11

18 USC Sect. 3771 (a)(6).....

........1,5,11

18 USC Sect. 3771 (b)(1).....

......... 1,5,11

18 USC Sect. 3771 (a)(8).....

.........1,5,11

18 USC Sect. 3771(c)(1).....

...1,5,11,15

34 USC Sect. 2014(b)...........

16
ix

18 USC Sect. 3771(a)(10).

1,5,17

18 USC Sect. 3771(a)(5)...

1,5,17

18 USC Sect. 3771, 503(c)

18

Rules
Fed. R. Crim. P. 41(g)...........

7

Fed. R. App. P. 28(j).............

8

Fed. R. Crim. P. 20(c)............

•;

16

Fed. R. Crim. P. 3.................

16

Fed. R. Crim. P. 58(b) and (c)

16

Other
United States Attorney Guidelines, Article 111(C)(1).............................

6, 7, 8, 9

H.R. Rep 114-7, at 8 (2015)..................................................................

12

Statement of Sen. Kyi 157 CONG. REC S3607 (June 8, 2011)............

15

Ltr. Ronald Weich, Asst. Attorney General to Sen, Kyi (Nov. 3, 2011)
Cassell et al, supra 104 J. CRIM. L. & CRIMINOLOGY at 96.....

15

i

x

i

PETITION FOR A WRIT OF CERTIORARI
Petition/Victim, Crystal VL Rivers, respectfully petitions for a writ of certiorari
to review the judgment of the United States Cc/urt of Appeals for the Fourth
Circuit.
OPINIONS BELOW
The opinions of the Fourth Circuit No. 20-1705 on petition for writ of
mandamus and rehearing en banc filed under the Crime Victims’ Rights Act, 18
USC Sect. 3771. (CYRA) attached as Appendix A and B
JURISDICTION
The Court of Appeals issued its judgment on December 29,2020, and denied a
timely petition for rehearing on March 2, 2021. This petition is timely filed
i

within 150 days

This Court has jurisdiction under 28 U.S.C. §

1254(1).
RELEVANT STATUTORY PROVISIONS
The provisions of rights set forth in under 18 U.S.C. § 3771; The Crime
Victim Right’s Act. The CVRA defines a “crime victim” in relevant part as “a
person directly and proximately harmed as a result of the commission of a
Federal offense or an offense in the District of Columbia.” 18 U.S.C. § 3771(e).

l

i

The CVRA’s passage in 2004 significantly expanded the rights of federal
crime victims and places an explicit duty on federal courts to ensure that
victims are afforded those rights. The court must additionally take up and
decide any motion asserting a victims’ rights forthwith.

i
i

INTRODUCTION
This Court should consider this matter in session with their upcoming
decision in Wild, resolving the circuit split and posed questions over the CYRA
and matters relating to the facts herein relevant to the Government’s violations of
Petitioner’s CYRA rights.
Since the original filing of Petitioner’s Mandamus under the CYRA, “newly
discovered” facts have been uncovered that were not available to the Petitioner
relating to her CYRA rights. Petitioner remains a,victim and the “Government” has
violated several of her rights under the CYRA as pled in her Petition, not merely
the issue of “conferring”. Petitioner requested by motion to this Court that this
matter be stayed because it is affected as well, as will all CYRA cases going
forward in the future, in Courtney Wild v USA, pending in the Eleventh Circuit;
Case No. 19-13843. The majority in Wild considered an issue of first impression:
“[Wjhether the CYRA extends any rights to crime victims before the Government
elects to formally file criminal charges”. As previously argued, the same issue
arose in this matter, was presented to this Court and as in Wild, brought against the
2

backdrop of underlying facts that, overlooked by this Court in this matter, but
acknowledged by the Eleventh Circuit majority, “[a]re beyond scandalous - they
tell a tale of national disgrace.” Despite the majority elaborating, the majority
reluctantly refused to grant any relief to Ms. Wild. Petitioner asks to be reheard
because Wild remains the leading authority pending after en banc review and is a
candidate, ultimately, for U.S. Supreme Court review. This Court has misconstrued
the facts relating to “conferring”, plead by Petitioner who stated at length the facts
surrounding this matter, also overlooked by this Court, relating to the
“Government’s” violations of her rights including failure to ever —confer with her.
Petitioner has rights and asks the Court to respectfully preserve her rights under the
CYRA while and until after Wild is litigated to a final decision.
STATEMENT OF THE CASE
The Petitioner filed her RICO Racketeering; action on May 25, 2018, against
non-indicted co-conspirators of subject Wynne and the illegal banking enterprise
of Rivermont Banking Company, alleging additional “newly discovered” on-going
criminal activity she had obtained from discovery. She filed her Emergency
Petition to Enforce her CYRA rights on July 15, 2019 (DE 18) after viewing the
Jane Doe’s v Jeffrey Epstein, matter on the television CNN Network. Petitioner
amended her complaint to add yet additional “newly discovered” facts and
circumstances and provided copies of all pleadings to the “Government”.
3

Petitioner has since repeatedly asked the “Government” to provide her with the
status of their investigation and the “Government” has not contacted her to confer
whatsoever, to provide status or notice of the investigation as provided by law in
the CYRA. The “Government” is aware of Petitio;ier’s rights under the CYRA and
stipulated in District Court filings that the scope of the federal agent’s employment
was the investigation relating to and alleged in rhe Petitioner’s RICO complaint
against the non-indicted co-conspirators of Wynne which also included PETITION
TO ENFORCE CRIME VICTIM’S RIGHTS.
The Court is incorrect in its March 2, 2021, denial of rehearing of the December
29, 2020, ruling, basing their decision on the Eleventh Circuit opinion reversing
Wild and overlooking the other appeals court decisions and facts pled by Petitioner,
stating “[concluding among other things, that Rivers own submissions
demonstrated that she had received ample opportunities to speak with Government
counsel about the alleged fraud.” Petitioner argued and maintains that all the while
she was unaware that she was a federal crime victim with rights under the CYRA,
she was also not notified of that fact and as alleged by her, any contact with the
“Government” was to inform, not to discuss what she did not or could not have
known. This Court incorrectly ruled based on the District Court’s opinion, that,
“[H]aving reviewed the record and the Petition before [us, we] agree that Rivers

4

has failed to identify a CYRA violation.” That i$ not what Petitioner has alleged
and she has not waived nor will she waive her rights under the CYRA.
Since the filing of the original Petition, crimes have continued to be committed
against the Petitioner, are amended in Court filings and provided to the
“Government”. The Government has failed to confer with the Petitioner or provide
the status of the investigation to her. Petitioner, has filed Amended Emergency
Petitions (DE 224, 230 and 305) and requested limited discovery. As was
previously argued, the district court ordered the Government, on or before January
10, 2020, to “[f]ile a brief more fully addressing ‘Rivers’ (the Petitioner)
arguments that she is entitled to the relief sought under 18 U.S.C. §3771.” The
Petitioner has filed timely Motions to Reconsider and the Government has filed
timely responsive pleadings. The district court record spans nearly 535 docket
entries, the case has been egregiously delayed with no scheduling order or hearings
set to manage the case. The Court stated that it has “[pjurposely delayed the case
due to [n]ot knowing the scope of the case”.
The majority opinions made in re: Wild, “[I]n fact, the majority
acknowledged that “[ujnder our reading, the CYRA will not prevent federal
prosecutors from negotiating ‘secret’ plea and non-prosecution agreements,
without ever notifying or conferring with victims, provided that they do so before
instituting criminal proceedings. We can only hojDe that in light of the protections
5

1

provided by other statutes - and even more so in t'jie wake of the public outcry over
federal prosecutors’ handling of the Epstein case - they will not do so.” (Op at 5253), have come to light in the Fourth Circuit and f\ill circle in this matter.
Judge Hull’s 60 page disssent was that, “[t]his perverse result would not
occur if this Court were to “enforce the plain and unambiguous text of the
CVRA...” Id at 60 (Hull, J., dissenting). Wild argued at length that the “Majority’s
contorted statutory interpretation materially revises the statute’s plain text and guts
victims’ rights under the CVRA.” Id Dissent 62
The Court denied Petitioner’s Mandamus- Petition because it was of the
opinion that the “Government” did not violate Petitioner’s rights under the CVRA
because they “conferred” with Petitioner. However, the Court did not provide a
legal basis at law or refer to or deny the Petition as to additional violations
complained of or her argument of the opinions of the Wild majority. The Court did
not consider the incorrect definitions of the CVRA in the Department of Justice
and Attorney General’s Guidelines, the IRS and FBI and US Attorney’s manuals or
the written response from the Ombudsman’s office sent to the Petitioner which
included the similar phrasing used by the Wild majority, argued by the Government
in that case and by the “Government” in this matter, in that “the victim is not a
crime victim unless there is a federal charge by complaint, information or
indictment.” That statement is incorrect as written and as argued by the
6
v;
i

“Government” in both cases and in Wild. The CYRA §3771 (b)(2)(D) published
“definition” of ‘crime victim’ means the person against whom the state offense is
committed or, if that person is killed or incapacitated, that persons family member
or other lawful representative; 3771(d)(5)(c) published “definition” of ‘crime
‘i

victim’ means a [p]erson directly and proximately harmed as a result of the
commission of a Federal offense or an offense in the District of Columbia].
The “Guidelines” as they are referred to by US Attorneys in pleadings, are
used as evidence of “best practices” and against crime victims when it best suits
their litigation. The definition of ‘crime victim’, found in the manual in Article III
(C)(1) is the same definition found in the CYRA. 18 U.S.C. §3771 (e):
;

“For the purposes of this chapter, the term “crime victim” means a
person directly and proximately harmed as a result of the commission of
a Federal offense or an offense in the District of Columbia. In the case
of a crime victim who is under 18 years of age, incompetent,
incapacitated, or deceased, the legal guardians of the crime victim or the
representatives of the crime victims estate, family members, or any other
persons appointed as suitable by the court, may assume the crime
victim’s rights under this chapter, but in no event shall the defendant be
named as such guardian or representative.”
However........

The Petitioner was and remains a “person directly and proximately harmed as a
result of the commission(s) of on-going federal offenses with rights to file motions
before charging, “[t]hat the term motion in the CV^RA refers to (among

other

things) a pre-charging CYRA enforcement action. Fed. R. Crim. P. 41(g) “Search
and Seizure” provides the federal rules regulating searches during investigations,

7

l'

under which third parties may file “motions” to epforce their rights even before a
prosecution is initiated. “ Under this rule, a “motion” for return of property may
be filed against the United States “in the district where the property was seized,” a
motion which is then litigated separately from any prosecution—as a separate
enforcement action. .. .Any third parties who are r^ot defendants in any criminal
i

case can take advantage of this rule and file “a motion” regarding the
Government’s actions in a criminal investigation. “This authority supports
[Petitioner’s] position that the term “motion” in the CYRA, 18 USC Sect.
3771(d)(3), similarly encompasses a crime victim’s CYRA motion to enforce the
victim’s rights before the formal filing of criminal charges.” See Wild, Ltr.
December 11, 2020, supplemented authority provided under Fed. R. App. P. 28(j)
The rights under the CYRA should not be stripped from the Petitioner if, as
“newly discovered”, the investigation of the matters reported to the Government
are ongoing and if there have been no formal federal charges filed.
\

The victim - Petitioner’s fate should not lie in the term “timing” used in the
Guidelines.
“Timing: CVRA rights attach when criminal proceedings are initiated by
complaint, information, or indictment, If the defendant is convicted,
CVRA rights continue through any period of incarceration and any term
of supervised release, probation, community correction, alternatives to
incarceration, or parole Absent a convictions victims CVRA rights
cease when charges pertaining to that victim are dismissed either
voluntarily or on the merits, or if the govemjment declines to bring
formal charges after filing a complaint.

8

It appears that the Victim’s Rights Ombudsman’s Office, and the attorneys
employed by the U.S. Attorney’s office, refer to Article HI (C) (4)Timing for its
definition of “[federal]crime victim” instead of the true Congressional definition
passed into law in 2004, when determining if a “crime victim” is a ‘crime victim.”
It appears that they chose to do so in this case. Petitioner has asked, repeatedly,
that she be given the status of the investigations into the crimes committed against
her that she reported to the FBI and IRS and that were referred to the AUSA. The
definition of “crime victim” they refer to is found in the “Guidelines” which have
published a false definition of crime victim, capticned, ‘terms’, in the Articles
relating to and defining the basic definition in the CYRA. The “Guidelines”
primarily address the victim’s rights provisions cohtained in the CYRA, however,
the paragraphs listed in the Articles as Victims Rights under the CYRA, are not all
contained in the CYRA, they are made up, authored and published by someone
other than Congress and the sponsors and co-sponsors of the Crime Victim’s
Rights Act of 2004. The “crime victim” can only be a “federal crime victim,”
mainly because ‘state crime victim’s’ are not afforded rights under the CYRA.
Petitioner filed leave to file third amended complaint including amending the
Petition for Enforcement of CYRA for violations1 learned from the Ombudsman’s
Office in late March 2020 that the Government has not formally charged the
putative defendants.
9

Petitioner argues the Government never ; brought the case and the IRS
continues to investigate. They continue to use the Jinformation of on-going criminal
violations (money laundering, illegal banking, fraud, extortion, forgery, tax fraud,
mail and wire fraud, among others) which Petitioner presented in 2018, and instead
of providing the Petitioner and other victims and tie district court with the status of
the investigation, or clarify the closing of the investigations and the reasoning for
either, continue with facilitating a non-criminal: consensual agreement of sorts,
between the putative defendants and the Government (units of the Treasury
Department) warranting the silence of the investigation, has or continues to result
in thousands of dollars going to Department of Treasury due to these violations,
which is evidence that a viable criminal case was presented, or else the
Government would divulge the closing status of the case and no such moneys
would have been paid.
The Department of Justice Ombudsman’s Office mailed a responsive letter
to Petitioner on March 26, 2020 definitively informing the Petitioner that “[n]o
charges were initiated relating to her complaint filed with their office and that no
federal charges were brough by complaint, information or indictment”. The DOJ
Whistle Blower Department sent a letter to the Petitioner stating that the federal
investigation was not related to tax evasion!

10

•j

The Government gained leverage with Petitioner’s reported suffrage, and
their interest in her statutorily superior interest in recouping her losses, which is a
right she possesses both under the CYRA and elsewhere, i.e., “[t]o obtain full
restitution before the United States could get any restitution” under 18 U.S.C.
3664(i), and 18 U.S.C. 3771 (a)(6).
The CYRA, specifically 18 U.S.C. 3771 (a) and (b)(1) and (c)(1), and the
provisions of 18 U.S.C. 3664(i) require the Court "to ensure” that crime victims
are “treated with fairness and respect.” That did not occur here and still is not
occurring here. Petitioner waited in vain for years Jo see if the Government would
act in a fashion that might indict the putative defendants for crimes under 18
U.S.C. that would result in her being able to recoup her losses through restitution.
Instead, the officials acted upon her information tQ enrich the Government’s
»

coffers, to her disadvantage. No evidence has beeij presented to prove the
enrichment has stopped. This the Government dcjes not have the right to do, even
under any prosecutorial discretion it may have, and the victim’s rights to have her
losses made whole by restitution after they have been presented in good faith to the
Government, or else no defrauded victims will ever come forward. Government’s
conduct also violates 3771(a)(8) and it provides the contest for and supports the
Petitioner’s claims under Bivens
,!

11

In 2015, Congress specifically added language to the CVRA’s appellate
provisions, providing that “[i]n deciding such [CVRA] applications, the court of
appeals shall apply ordinary standards of appellate review.” 18 U.S.C. §3771(d)(3)
(added by Pub L. 114-22, Title I, §1123(c)(2), May 29 2015); see also H.R. Rep
114-7, at 8 (2015). This Court’s decision to deny Mandamus is the result of its
“incorrect” interpretation of Petitioners argument specifically the meaning of
“confer” under the CVRA. Petitioner’s argument, interpretation of the CVRA and
findings of the Fifth Circuit adopted in re Does v USA (Wild), is not implausible.
The Government has not conferred with the Petitioner of crimes reported to them
and filed within her RICO pleadings filed in the Western District Court and is
continuing to violate the Petitioner’s CVRA rights. Denying to enforce the
Petitioner’s rights in this matter is improper. The Petitioner has the right to be
heard, treated fairly and to limited discovery. The Court must enforce the plain
and unambiguous text of the CVRA.
Consequently, the parts of the Petitioner’s facially valid claim, stand
unrebutted by the defendants, should not be dismissed mainly because the
Government has conceded in its Certification of Scope of the Employment (DE
294-1) that, “[t]he agents were acting within the scope of their employment as
employees of the IRS at the time of the incidents out of which the suit arose.” The

12

!

Government failed to deny or argue that the defendants named in the Petitioner’s
RICO case were not included in the scope of the investigation.
These Government violations of Petitioner rights is the reason the Crime
Victim’s Rights Act was established, to protect federal crime victims. The
Eleventh Circuit’s decision in re Wild will dictate how all future crime victim’s
Petitions will proceed before the Courts, including this case currently before you.
In Petitioner’s judgment, one or more of the following situations exist:
1. The Opinion is in conflict with a decision of another Court of Appeals and
the conflict is not addressed in the Opinion.
2. A material factual or legal matter was overlooked in the decision.
While Petitioner was being duped by subject John Wynne and his illegal
banking enterprise, Rivermont Banking Company Inc, beginning in 2007, the
federal and grand jury investigations ensued defining the Petitioner as the victim,
the “federal nexus”. The IRS was defined as the “lead agency”. These facts were
not divulged or “conferred” to the Petitioner by the Government, or any
investigative agency assigned to the matter by the DOJ. Portions of the facts have
come to the surface only upon litigation defending Petitioners claims since 2014
and against the Virginia State Police under Petition for VAFOIA in July 2020.

13

T

I

I

*
I

!

The Government has not argued that Petitione' is not a victim, on the contrary,
the Government has admitted that Petitioner was the victim and offered in

!
I
I

I

Certification that “[t]he scope of the employment of the IRS agents named
defendant in the matter was to investigate the matters alleged [in Petitioner’s Civil
RICO complaint]” The matters alleged in the RICO complaint are directly related
to the Petitioner’s CYRA rights and the crimes Petitioner reported as the named
victim. The federal nexus still exists and the CYRA Petition is not a separate civil
matter.

i

;
I

The Government has not produced any notification to Petitioner or the Court
s

relating to the status of their investigation of; the crimes reported, the court
proceedings, any agreements, or any sealed or unsealed cases relating to the matter.
REASONS FOR GRANTING THE WRIT
i

I. The Fourth Circuit’s ruling is unpersuakive and did not address the

i

!

conflict of the Circuit’s and failed to wait to issijie their opinion until after the
decision in Wild which will determine the issue of whether the formal filing of
federal charges by complaint, information or indictment is necessary before
1

federal crime victims CYRA rights apply.
This issue is pending in Wild in the Eleventh Circuit and warrants en banc
review after the Wild case is finalized. Indeed, “[W]hen Congress enacted the

i

14
«
' *)
;

CVRA, it intended to protect crime victims throughout the criminal justice
process—from the investigative phases to the final conclusion of a case.” 157
CONG. REC. S3607 (June 8, 2011 )(statement of Sen. Kyl)(quoting letter to
1

Attorney General Holder). While “[t]he criminal justice system, has long
functioned on the assumption that crime victims should behave like good Victorian
i

children—seen but not heard,” the CVRA worked a dramatic change “by making
victims independent participants in the criminal justice process.” Kenna v USDist.
i

f
}

Court for CD of Cal. 43 5 F 3d 1011, 1013 (9,h Cir. 2006)(quoting in re Wild)
The CVRA instructs the DOJ and “other departments and agencies of the
United States engaged in the detection, investigation, or prosecution of crime” to
“make their best efforts to see that crime victims s/e.. .accorded the rights
;

I

!

described in the CVRA.” 18 USC Sect. 3771(c)(1). The Eleventh Circuit dissent
in Wild stated that “[ljogically, there would be no reason to mandate that federal
!

agencies involved in crime ‘detection’ or ‘investigation’ see that victims are
accorded their CVRA rights if those rights did notjexist pre-charge. Indeed, the use
of disjunctive wording—the ‘or’—indicates agenqies that fit either description
must comply...” Dissent 90-91 (quoting in re Wild)
The CVRA Venue provision provides that crime victims can assert their CVRA
rights “in the district court in which a defendant is being prosecuted for the crime
or, if no prosecution is underway, in the district co.urt in the district in which the
;

15

*
K

crime occurred.” 18 USC Sect. 3771 (d)(3). This venue provision provides that, if a
prosecution is underway, victims may assert their rights in the ongoing criminal
action. If however, ‘no prosecution is underway,’ . victims may assert their rights in
the district court in which the crime occurred.” Frank v United States, No 19i

10151, 789 Fed. App. (177 11th Cir. 2019) “Prosecution” describes events that
happen after the filing of a complaint, information! or indictment. If the transfer on
a complaint ultimately leads to a not quality plea, then the “clerk must return the
papers to the court where the prosecution began...” Rule 20(c); Fed. R. Crim. P
58(b) & (c). Before the Government has filed a sWom complaint “written statement
of the essential facts constitution the offense charged.” Fed. R. Crim. P. 3—than a
“prosecution” has begun. Before then, no prosecution is “underway,” and victims
assert their CVRA rights in the district where the Crime was committed.” Id.
1
II. The DOJ provides pre-charging notifications to crime victims but failed

1
i

to do so in this matter.

t

Congress requires all Justice Department agencies engaged in “the detection,
investigation, or prosecution of crime” to “[i]dentify the victim or victims of a
crime” at “the earliest opportunity after the detection of a crime at which it may be
done without interfering with an investigation...” 34 USC Sect. 2014(b). That did
not happen in this matter.
>.
:

16

K
■

The DOJ’s investigative agencies “provide [service referrals, reasonable
protection, and notice concerning the status of thelinvestigation] to thousands of
L 1
victims every year, whether or not the investigation results in a federal
prosecution.” Ltr. Ronald Weich, Asst. Attorney General to Jon Kyi, US Senator
(Nov. 3, 2011), cited in Cassell et al.t supra. 104 J. CRIM. L. & CRIMINOLOGY
at 96.
III. Material facts and legal matters were overlooked by the Fourth Circuit
relating to the “definition” of confer under the CYRA.
As in 34 USC Sect. 2014(c)(3), [Petitioner hasfequested and the Government
has refused]., to provide her with “the earliest possible notice of....the status ofthe
investigation of the crimes [that she reported], to the extent it is appropriate to
inform [her] the victim and to the extent that it will not interfere with the'
investigation.”
Congress amended the CYRA in 2015 adding, uthe right to be informed of the
»J

rights under this section and the services described in section 503(c) of the
Victims’ Rights and Restitution Act of 1990...”(\^RRA) 18 USC Sect.
3771(a)(10). Under 18 USC Sect. 3771(a)(5), Petitioner believes the CVRA’s
“reasonable” right to “confer with the attorney for the Government in this case
applies pre-charging without creating any administrative difficulties and is

17

“confer” is defined as being informed ofthe rights under 503(c), 18 USC Sect.
3771 and the rights to be informed of the status of the investigation pre-charge and
thereafter.
CONCLUSION
For the foregoing reasons, the^petition for a writ of certiorari should be granted.
Respectfully submitted, ^-veritas”
\
\
Crystal xL Rivers, Pro Se
3831 Old Forest Rd, Suite 6
Lynchburg VA 24501
434-818-2921
riversparalegalservices@gmail.com

f

i

18

